f

7585
IN THE
SUPREME COURT OF THE UNITED STATES

CHARLES D. BOWSER,
Petitioner,
v.
STATE OF KANSAS,
Respondent.

On Petition for a Writ of Certiorari
to the Supreme Court of the State of Kansas

PETITION FOR A WRIT OF CERTIORARI

Charles D. Bowser KDOC# 118896
Ellsworth Correctional facility
PO Box 107
Ellsworth, Kansas 67439-0107
(785) 472-6332
Pro Se

T

QUESTIONS PRESENTED FOR REVIEW
Whether this Court should grant certiorari to resolve the issue if the Due Process Clause
and North Carolina v. Pearce, 395 U.S. 711, 89 S. Ct. 2072, 23 L.Ed.2d 656 (1969) applies
where evidence exists of bias and prejudice by the sentencing court prior to trial, and, after
a trial, the defendant receives a greater sentence than he would have under the plea
bargain?

l

,#

TABLE OF CONTENTS
QuestionsPresented

1

Table of Contents

11

Table of Authorities

IV

Opinion Below

1

Jurisdiction

1

Constitutional and Statutory Provisions Involved

2

Statement of Case

3

Argument
I. Whether this Court should grant certioraro to resolve the issue if North
Carolina v. Pearce, 395 U.S. 711, 89 S.Ct. 2072, 23 L.Ed. 2s 656 (1969) applies where
evidence exists of bias and prejudice by the sentencing court prior to trial, and,
after trial, the defendants recieves a greater sentence than he would have under
4
the plea bargain?
6

Conclusion
Appendix
Appendix A Opinion of the Kansas Supreme Court

n

TABLE OF AUTHORITIES
Cases

Ala. v. Smith, 490 U.S. 794, 109 S.Ct. 2201, 104 L.Ed. 2d 865 (1989)

5

Bordenkircher v. Hays, 434 U.S. 357, 98 S.Ct. 63 (1978)

4

North Carolina v. Pearce, 395 U.S. 711, 89 S.Ct. 2072, 23 L.Ed. 2d 656 (1969)

4

Constitutional Provisions:
U.S. Constitutional Amendment V.

2

U.S. Constitutional Amendment XIV.

2

Statutes:
1

28 USC § 1257 (a)
Miscellaneous
Kansas Judicial Canon 2, Rule 2.3

3,5

m

es

PETITION FOR A WRIT OF CERTIORARI

Petitioner,

0-

(kerejn after

) respectfully prays that

a Writ of Certiorari be issued to review the judgement of the Supreme Court of the State of
Kansas

OPINION BELOW
The Opinion of the Supreme Court of Kansas is published at S'VqI'C O.
(2020) A copy of the opinion is attached as Appendix A.

JURISDICTION
The Kansas Supreme Courts decision was entered on October 23rd, 2020. This petition is
timely filed under Order, 2020 U.S. dated March 19th, 2020, authorizing 150 days from
day of final judgement to file a Writ of Certiorari due to COVID-19. This courts certiorari
jurisdiction is invoked under 28 USCS § 1257 (a)

1

7zycj

CONSTITUTIONAL PROVISIONS INVOLVED
United States Constitution, Amendment V (in pertinent part)
. . nor shall [any person] be deprived of live, liberty or property without due
process of law;...
United States Constitution Amendment XIV (in pertinent part)
. . .; nor shall any state deprive any person of life, liberty, or property, without due
process of law; . . .

2.

V

/

STATEMENT OF THE CASE
The Petitioner, Charles Bowser, was charged after several robberies in Kansas City,
Missouri and Kansas with other co defendants. The jury convicted Bowser of 10 counts of
criminal conduct, including attempted capital murder of Deputy Scott Wood. Bowser was
sentenced to a hrd 25 life sentence plus an additional 455 months for the other offenses.
(Appendix A Pg 2)
Bowser rejected a plea offer of 35 years. Id at 12. The District Court, prior to trial,
advised Bowser that if convicted he would recieve a hard 25 sentence plus an additional
228 months. Id. After trial Bowser was sentenced to the hard 25 plus 455 months. Id
The District Court engaged in a lenghy Colloughy with the defendant, multiple
times emphasizing the plea deal. Id at 13-15.
On direct appeal to the Kansas Supreme Court Bowser argued that District Court
violated

Kansas

Judicial

Canon

2,

Rule

2.3,

concerning

"Bias,

Prejudice,

and

Harrassment". Id at 13. Bowser argued the District Court abandoned its netural role and
actively advocated for Bowser to accept the plea dea. Id at 14.
The Kansas Supreme Court did note the District Court "may have come close to the
advocacy line" Id at 15. However the Court ruled there was no error. Id
Bowsers conviction rested on DNA evidence, recovered stolen itmes from Bowers
car, a recovered firearm from Kings house where he was arrested. Id at 23. No eyewitness
or co defendant statements directly tied Bowser to the crimes. In fact all the direct
evidence implicated the co defendants.

3.

REASONS FOR GRANTING THE WRIT OF CERTIORARI
I. Whether this Court should grant certiorari to resolve the issue if North
Carolina v. Pearce, 395 U.S. 711, 89 S. Ct. 2072, 23 L.Ed.2d 656 (1969) applies where
evidence exists of bias and prejudice by the sentencing court prior to trial, and,
after a trial, the defendant receives a greater sentence than he would have under
the plea bargain?
In North Carolina v. Pearce, 395 U.S. 711 (1969), a defendant’s sentence was
enhanced by the trial court following a successful appeal. This Court held that such
enhancement is unconstitutional since it penalizes convicted felons who elect to exercise
their appellate remedies; due process requires that vindictiveness against a defendant who
has successfully challenged his conviction must play no role in sentencing since the fear of
vindictiveness would deter others from exercising their constitutional rights. A sentence
can only be enhanced where events subsequent to the first trial have thrown new light
upon the defendant's character. Id. at 723-725.
In Bordenkircher v. Hayes, 434 U.S. 357, 98 S. Ct. 663 (1978) this Court refused to
broaden the scope of Pearce to include instances where a defendant has repudiated a plea
bargain agreement. In Bordenkircher, the defendant and the prosecutor entered into plea
negotiations wherein the prosecutor offered a five year sentence for a plea but informed the
defendant that if he insisted on a trial, he would be charged as a habitual offender. Despite
the warning, the defendant insisted on trial, and he was charged and convicted as a
habitual offender and sentenced to life imprisonment. This Court found Pearce to be
distinguishable from these facts. In Pearce, the State unilaterally imposed a penalty upon
a defendant who had chosen to exercise his right to appeal his original conviction which
this Court found to be a situation "very different from the give-and-take negotiations
4.

common in plea bargaining between the prosecution and defense, which arguably possess
relatively equal bargaining power." Id at 362
In Ala. v. Smith, 490 U.S. 794, 109 S. Ct. 2201, 104 L.Ed.2d 865 (1989) the Court
later restricted Pearce and stated that the circumstances of sentencing there must be a
"reasonable likelihood," Id at 799 that the increase in sentence is the product of actual
vindictiveness on the part of the sentencing authority. Absent of evidence of "reasonable
likelihood" the defendant bears the burden to prove vindictiveness. Id
In the case at bar, under Kansas Judicial Canon 2, Rule 2.3 "Bias, Prejudice, and
Harassment" it reads in relevant part:
"(A) A judge shall perform the duties of judicial office,
administrative duties, without bias or prejudice.

including

"(B) A judge shall not, in the performance of judicial duties, by words or
conduct manifest bias or prejudice, or engage in harassment, including but
not limited to bias, prejudice, or harassment based upon race, sex, gender,
religion, national origin, ethnicity, disability, age, sexual orientation, marital
status, socioeconomic status, or political affiliation, and shall not permit
court staff, court officials, or other subject to the judge's direction and control
to do so." (2020 Kan. S. Ct. R. 449.)
In its opinion the Kansas Supreme Court did acknowledge the Sentencing Court did
come close to the "advocacy line" (Appendix A Pg 15) in repeadetly asking Bowser to
consider his choices. Id. The closest evidence available is the Sentencing Courts own words
and the Kansas Supreme Courts own opinion.
However, no case thus far has this Court ruled upon that evidence of bias in a
pretrial setting translated in to judicial vindictiveness at sentencing. This court should
vacate Bowers sentence and remand for resentencing.

5.

CONCLUSION
For the foregoing reasons, the Petitioner respectfully prays that a writ of certiorari
be issued to review the judgement of the Kansas Supreme Court.

Respectfullly submitted,

Ellsworth Correctional Facility
PO Box 107
Ellsworth, Kansas 67439-0107
Pro Se

6.

